No. 20-886
THELMA G. MCCOY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Reply Brief for Petitioner was hand-delivered by courier to the U.S. Supreme Court on May
28, 2021. Additionally, a copy of the Reply Brief for
Petitioner was sent to counsel by overnight FedEx, as
well as by transmitting a digital copy via electronic
mail.
Elizabeth Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
Direct: 202-514-2217
E-mail: SupremeCtBriefs@USDOJ.gov
/s/ Daniel A. Rubens
Counsel of Record

